U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

August 27, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Rockwood Casualty Insurance Company v. Director, Office of Workers'
Compensation Programs, Department of Labor, et al., No. 19-23
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 28, 2019,
and placed on the docket on July 2, 2019. The government's response is now due, after one
extension, on September 3, 2019. We respectfully request, under Rule 30.4 of the Rules of this
Court, a further extension of time to and including October 3, 2019, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government's response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner consents to this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0023
ROCKWOOD CASUALTY INSURANCE COMPANY
DIRECTOR, OWCP, DEPARTMENT OF LABOR, ET
AL.

BRAD AUSTIN
WOLFE WILLIAMS & REYNOLDS
470 PARK AVENUE
P0 BOX 625
NORTON, VA 24273
276-679-0777
BAUSTIN@WWRRLAWFIRM.COM
VICTORIA S. HERMAN
WOLFE WILIAMS & REYNOLDS
28 CROSS ROADS DRIVE
MOUNT HOPE, WV 25880
276-870-2717
VHERMAN@WWRRLAWFIRM.COM
CHERYL L. INTRAVAIA
FEIRICH/MAGERIGREEN/RYAN
2001 WEST MAIN STREET
P0 BOX BOX 1570
CARBONDALE, IL 62903
618-529-3000
CINTRAVAIA@FMGR.COM
JOSEPH E. WOLFE
WOLFE WILLIAMS & REYNOLDS
P.O. BOX 625
NORTON, VA 24273
304-461-7774

